          U.S. Department of Energy
          Office of Inspector General
          Office of Audits and Inspections




Audit Report
The Department of Energy's Energy
Efficiency and Conservation Block
Grant Program Funded under the
American Recovery and
Reinvestment Act for the City of
Philadelphia




OAS-RA-12-09                        April 2012
                                   Department of Energy
                                      Washington, DC 20585

                                           April 23, 2012

MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND
               RENEWABLE ENERGY




FROM:                     George W. Collard
                          Assistant Inspector General
                             for Audits
                          Office of Inspector General

SUBJECT:                  INFORMATION: Audit Report on "The Department of Energy's
                          Energy Efficiency and Conservation Block Grant Program Funded
                          under the American Recovery and Reinvestment Act for the City of
                          Philadelphia"

BACKGROUND

Under the American Recovery and Reinvestment Act of 2009, the Department of Energy's
Energy Efficiency and Conservation Block Grant Program (Program) received $3.2 billion in
funding to help U.S. state and local entities develop, implement, and manage energy efficiency
and conservation projects. Funding of $2.7 billion was, for the most part, distributed to over
2,000 entities using a population driven formula. An additional $453 million was provided by
the Recovery Act for innovative energy projects proposed by Government entities and was
awarded as part of a competitive process. Authorized projects include the development of
energy conservation strategies; energy efficiency audits and retrofits; transportation programs;
financial incentive programs for energy efficiency improvements; establishment of advanced
building codes and inspections; installation of energy efficient traffic signals and street lighting;
and, installation of renewable energy technologies on municipal buildings.

The Department awarded the City of Philadelphia $39.1 million, including $14.1 million in
formula grant funds and $25 million in a competitive grant. The formula grant projects include
the Energy Works Loan Fund, installation of bike racks, solar compacting litter baskets and solar
panel installation. The competitive grant projects focused on a commercial retrofit program, a
residential retrofit program, and an energy management and communications program.

Because of the risks inherent in establishing a large, new program of national significance, we
initiated this audit to determine whether the City had managed its Recovery Act block grants
efficiently and effectively.

CONCLUSIONS AND OBSERVATIONS

We found that the City could improve its management of its Recovery Act block grants.
Specifically, we noted that the City:
    • Erroneously transferred $2 million of public utility rebates earned on block grant projects
      to its general fund to meet budget needs. The City reportedly misunderstood the nature
      of the rebates. When we brought the issue to their attention, officials developed, and the
      Department approved, a plan to use rebate funds on additional block grant projects;

    • Incorrectly calculated the amount of interest owed to the U.S. Department of Treasury on
      competitive and formula funds advanced specifically for block grant projects. The City
      not only applied an erroneous rate, but also failed to compound interest. After we
      brought the error to their attention, City officials recalculated the interest and planned to
      remit $5,700 to the U.S. Department of Treasury, as required; and,

    • Had not ensured that equipment purchased with Recovery Act funds had actually been
      installed as required in the grant agreements. We identified three instances where energy
      efficient lighting had been purchased, but not installed, defeating the intent of the
      Recovery Act to reduce energy consumption. Recipients told us they purchased the
      equipment with formula funds to hold in inventory until existing lighting burned out.

We made recommendations to address the issues identified during our audit and improve the
City's management of its Recovery Act block grants.

                                   Use of Utility Incentive Funds

The City deposited $2 million in rebates earned on the expenditure of block grant funds into its
general fund for use on general purpose needs rather than restricting the use of those rebates to
Recovery Act block grant activities, as required. In its agreement with the Department, the City
confirmed that it would use any rebates earned to cover costs incurred on an approved block
grant lighting project. With its Recovery Act funding, the City planned to replace 85,000
conventional traffic lights with energy efficient light-emitting diode (LED) traffic lights at a cost
of about $3.1 million. By spending money on energy efficient lighting, the City became eligible
for a public utility's incentive program—a rebate program that returned funds based on the type
of LED traffic light purchased and installed. However, contrary to its agreement with the
Department, we found that the City had deposited proceeds from the rebate program into its
general fund where monies could be used to support any of the City's budgetary needs. Federal
regulations and the terms and conditions of the City's block grants expressly require rebates
earned on the expenditure of Federal funds to be used only for authorized projects and prior to
the request of any additional Federal funds.

The misallocation of rebate funds occurred because the City believed the funds were "utility
retroactive discounts" rather than rebates related to its block grant expenditures. After we
brought our concern about the characterization of the rebates to management's attention, City
officials developed, and the Department approved, a plan for using the rebate funds to support
additional block grant projects.




                                                  2
                                         Interest Earnings

The City incorrectly calculated the amount of interest owed to the U.S. Department of Treasury
on competitive and formula funds advanced to meet block grant project needs, using a lower
interest rate than appropriate and failing to compound interest. As a result of our audit, the City
recalculated the interest earnings and will return $5,700 to the U.S. Department of Treasury.

                                        Project Monitoring

The City had not ensured lighting equipment purchased through its Small Business Retrofit
Program had been properly installed according to grant agreements. During our site visits, we
found that three of the City's sub-recipients had not installed energy efficient lights as specified
in their proposals. For example, one sub-recipient had purchased compact fluorescent light bulbs
(CFLs) to replace incandescent bulbs, but had not installed them. The sub-recipient was
reportedly waiting for the old bulbs to "burn-out" prior to installing the new bulbs. The City was
not aware the new light bulbs had not been installed, and therefore, the energy savings had not
been realized. According to 10 CFR 600.240, Monitoring and Reporting Program Performance,
grantees are responsible for monitoring activities to ensure compliance with applicable Federal
requirements and achievement of performance goals.

City officials relied on recipients to provide photograph and invoice documentation showing
materials had been purchased and installed. However, the photographs did not always include all
items purchased and installed; and City officials did not physically verify the installation and
operation of equipment purchased with Federal funds. The City agreed that its monitoring
program could be improved; and as a result of our audit, City officials told us that they are
visiting all of the Small Business Retrofit Program recipients.

While the dollar impact in the three cases we identified is relatively small, the lack of monitoring
could eventually have an impact on the achievement of Program goals. As of December 31, 2011,
approximately 47 percent of the $39.1 million the City received under the Recovery Act remained
to be spent.

RECOMMENDATIONS

To achieve the objectives of the Recovery Act, we recommend that the Assistant Secretary for
Energy Efficiency and Renewable Energy ensure the City:

    1. Uses the $2 million in rebate proceeds earned on Recovery Act block grant activities for
       approved grant purposes;

    2. Calculates and remits interest earnings properly; and,

    3. Closely monitors project performance and funds expended.




                                                 3
MANAGEMENT REACTION AND AUDITOR COMMENTS

The Department concurred with the findings and recommendations in our audit report.
Management noted that City officials developed a plan for using the rebate funds to support
additional block grant projects. The Department also stated it had developed guidance to assist
other grantees in understanding how to use rebate funds and continued to work with the City to
ensure that adequate oversight is in place for compliance in the Small Business Retrofit Program.
The City also provided comments in response to our report. Specifically, the City indicated there
was confusion about the definition of retroactive discounts and rebate funds. The City also
stated it implemented 100 percent verifications for the Small Business Retrofit Program, at our
request. While we did not specifically recommend this action in our report, we are encouraged
by the City's actions.
We consider the comments and planned actions of the Department and City responsive to our
recommendations. The comments can be found in their entirety in Attachment 3.

Attachments

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff




                                                4
                                                                                    Attachment 1


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine if the City of Philadelphia (City) had managed its
American Recovery and Reinvestment Act of 2009 (Recovery Act) block grants efficiently and
effectively.

SCOPE

This report contains the results of an audit conducted between April 2011 and April 2012. The
scope of the audit was limited to the City's formula and competitive block grants. We conducted
work at the City's offices in Philadelphia, Pennsylvania. In addition, we obtained Energy
Efficiency and Conservation Block Grant Program (Program) information from the Department
of Energy's (Department) Headquarters in Washington, DC, and the Golden Field Office in
Golden, Colorado.

METHODOLOGY

To accomplish the audit objective, we:

     • Reviewed Federal and Department regulations applicable to the Program;

     • Reviewed City policies and procedures for project and Recovery Act funds
       management;

     • Assessed compliance with the Buy American provision of the Recovery Act, Davis-
       Bacon Act, National Historic Preservation Act, National Environmental Policy Act, and
       the Department's Waste Stream Plan requirements;

     • Interviewed the City oversight team and project managers;

     • Reviewed invoices and subcontract agreements for reasonableness of costs incurred for
       15 projects; and,

     • Observed the implementation of six projects.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our conclusions based on our audit objective. Accordingly, the audit included tests of controls
and compliance with laws and regulations to the extent necessary to satisfy the objective. In
particular, we assessed the implementation of the GPRA Modernization Act of 2010 as it relates to
the audit objective and found that the Department had established performance measures related


                                                5
                                                                        Attachment 1 (continued)


to the use of Recovery Act funds for the Program. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. We did not rely on computer-processed data to accomplish our audit objective.

The Department waived an exit conference.




                                                6
                                                                                    Attachment 2


                                  PRIOR AUDIT REPORTS

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), the Office of
Inspector General has initiated a series of audits designed to evaluate the Department of Energy's
Energy Efficiency and Conservation Block Grant Program. Our series of audit reports include
the following:

   •   Audit Report on The State of Nevada's Implementation of the Energy Efficiency and
       Conservation Block Grant Program (OAS-RA-12-02, November 2011)

   •   Audit Report on The Department of Energy's Energy Efficiency and Conservation Block
       Grant Program Funded under the American Recovery and Reinvestment Act for the State
       of Pennsylvania (OAS-RA-L-11-11, September, 2011)

   •   Management Alert on The Status of Energy Efficiency and Conservation Block Grant
       Recipients' Obligations (OAS-RA-11-16, September, 2011)

   •   Audit Report on The Department of Energy's Implementation of the Energy Efficiency
       and Conservation Block Grant Program under the Recovery and Reinvestment Act: A
       Status Report (OAS-RA-10-16, August, 2010)




                                                7
                      Attachment 3
MANAGEMENT COMMENTS




         8
                      Attachment 3 (continued)
MANAGEMENT COMMENTS




         9
     Attachment 3 (continued)




10
     Attachment 3 (continued)




11
                                                                    IG Report No. OAS-RA-12-09


                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
